                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 109100062                                                                  Page 1 of 1



                                                   against a university. I The allegations involve
         mischarges to awards from another agency2 to a university department. 3 The allegations do
         not mention NSF, and the department has received no awards from NSF. In the absence of
                                                       \

         any allegation ofor evidence suggesting wrongdoing related to NSF awards, this case is closed.




         1   The State University of New York.
         2   NIH.
         3   The Research Institute on Addictions.



NSF 010 Form 2 (11/02)
